<html>
<title> - EXAMINING ONGOING HUMAN RIGHTS ABUSES IN VIETNAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
            EXAMINING ONGOING HUMAN RIGHTS ABUSES IN VIETNAM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2012

                               __________

                           Serial No. 112-125

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
72-463                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anh ``Joseph'' Cao, former Member of Congress......     8
Nguyen Dinh Thang, Ph.D., executive director, Boat People SOS....    16
Mr. Rong Nay, executive director, Montagnard Human Rights 
  Organization...................................................    30
Ms. Phuong-Anh Vu, victim of human trafficking...................    37
Mr. John Sifton, advocacy director for Asia, Human Rights Watch..    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anh ``Joseph'' Cao: Prepared statement.............    11
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    20
Mr. Rong Nay: Prepared statement.................................    32
Ms. Phuong-Anh Vu: Prepared statement............................    40
Mr. John Sifton: Prepared statement..............................    49

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
Edited oral statement of Ms. Phuong-Anh Vu.......................    72
Nguyen Dinh Thang, Ph.D.: Material submitted for the record......    75
Mr. Rong Nay: Material submitted for the record..................    83
Mr. John Sifton: Material submitted for the record...............    99
The Honorable Al Green, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............   114


            EXAMINING ONGOING HUMAN RIGHTS ABUSES IN VIETNAM

                              ----------                              


                       TUESDAY, JANUARY 24, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And I want 
to welcome all of you to our hearing on human rights in 
Vietnam. And I want to thank you for joining us at this very 
important hearing.
    Before I introduce all the witnesses, I do want to say a 
very special thanks to Anh Cao who is a good friend, the first 
Vietnamese-American ever to be elected to the U.S. House of 
Representatives and a man who spoke out bravely and repeatedly 
for human rights all over the world, but with a particular 
emphasis and with a great deal of knowledge in depth on 
Vietnam. So welcome back to the Congress. It's great to see you 
again.
    The Vietnam Government continues to be an egregious 
violator of a broad array of human rights. Our distinguished 
witnesses who are joining us here today will provide a detailed 
account, and I would like to highlight just a few areas of 
grave concerns. Despite the State Department's decision in 2006 
to remove Vietnam from the list of Countries of Particular 
Concern as designated pursuant to the International Religious 
Freedom Act, Vietnam, in fact, continues to be among the worst 
violators of religious freedom in the world. According to the 
United States Commission for International Religious Freedom 
2011 Annual Report, ``The Government of Vietnam continues to 
control religious communities, severely restricts and penalizes 
independent religious practice and brutally represses 
individuals and groups viewed as challenging its authority.''
    I agree with the Commission's conclusion, where they have 
asked that Vietnam again be designated as a Country of 
Particular Concern. The State Department's designation of 
Vietnam as a Tier II Watch List country with respect to the 
minimum standards for the elimination of human trafficking also 
needs to be critically examined. The Department's 2011 
Trafficking in Persons Report states not only that Vietnamese 
women and children are being sexually exploited, but that there 
are severe labor abuses occurring as well, with the 
government's complicity. The report acknowledges that state-
affiliated labor export companies charge illegal fees for 
overseas employment, and recruitment companies engage in other 
trafficking-related violations.
    There are also documented cases of recruitment companies 
ignoring pleas for help from workers in exploitive situations. 
As the sponsor of the Trafficking Victims Protection Act, I am 
deeply concerned that the tier rankings are not being better 
utilized by our State Department to pressure Vietnam to correct 
the trafficking abuses occurring within its government, not to 
mention those in the private sector.
    We are particularly privileged to have today Ms. Phuong-Anh 
Vu and she will testify about the horrific suffering she 
endured when she was trafficked from Vietnam to Jordan. It is 
also troubling to hear about the abuse that she and others have 
had to endure by the Vietnamese Government even after their 
escape from the traffickers. Ms. Vu, I greatly admire your 
courage and the subcommittee is most appreciative of your 
presence as well as your testimony.
    I met other courageous individuals during my last trip to 
Vietnam who were struggling for fundamental human rights in 
their country. Unfortunately, many of them continue to be 
persecuted by the government. Father Ly is in prison and is 
suffering from very poor health and attorney Nguyen Van Dai 
remains under house arrest. Despite this dismal status for 
human rights in Vietnam, there are new opportunities for the 
United States to exert pressure on the government to cease 
these abuses. HR 1410, the Vietnam Human Rights Act, which I 
introduced last year, which passed the House on two occasions, 
most recently in 2007, would provide significant motivation to 
the Government of Vietnam to respect its international human 
rights obligations. It would prohibit any annual increase in 
the amount of non-humanitarian assistance that the United 
States provides to Vietnam, unless there is an equal or greater 
increase in the amount of assistance for human rights and 
democracy promotion and programming in Vietnam.
    An increase in non-humanitarian assistance would also be 
prohibited unless Vietnam satisfies certain requirements 
including substantial progress toward respect for the freedom 
of religion and freedom of expression and assembly, respect for 
ethnic and minorities rights, and allowing Vietnamese nationals 
free and open access to the United States refugee programs. The 
government would also have to end its complicity in severe 
forms of human trafficking.
    In addition, this legislation would reaffirm the United 
States' commitment to overcoming the jamming of Radio Free Asia 
by the Vietnamese Government, to engaging in cultural exchanges 
in a manner that promotes freedom and democracy in Vietnam, and 
to offering refugee resettlement of Vietnamese nationals who 
have been deemed ineligible solely due to administrative errors 
or for reasons beyond their control.
    Again, I want to thank our distinguished witnesses for 
being here and look forward to their testimony. I'd like to 
yield to my friend and colleague, Ranking Member Don Payne.
    Mr. Payne. Thank you very much. Excuse my voice. I became 
hoarse. Let me start by commending my colleague, Chris Smith, 
for calling this very important hearing. I would especially 
like to thank our witnesses, a very distinguished group, for 
agreeing to testify here today.
    Following the Vietnam War, relations between Vietnam and 
the United States were minimal until the mid-1990s. Since then, 
economic and security interests have resulted in increased 
partnership. I became very involved in the humanitarian side of 
the Vietnam War and was in Vietnam during the withdrawal of 
American troops and was working to try to build cities up by 
the north where the desire was to strengthen the community and 
to resist the north and VC from coming down. So I, up in Quang 
Trung Province and cities in that area, spent time working with 
various community development programs for a while. So I have a 
very strong interest and concern in Vietnam as many of us have.
    Since the 1990s when we started to have some attention 
paid, economic security interest has increased and there have 
been increased partnership. In 2001, the U.S. established 
normal trade relations with Vietnam. And in 2010, bilateral 
trade amounted to over $15 billion. Vietnam has joined the U.S. 
as one of the nine countries negotiating the Trans-Pacific 
Strategic Economic Partnership Free Trade Agreement which the 
administration intends to have in place no later than November 
of this year. However, as Secretary Clinton noted, last 
November, the United States had made it clear to Vietnam that 
if the two countries are to develop a strategic partnership, 
Vietnam must do more to respect and protect the civilians' 
rights.
    Under the rule of the Vietnamese Communist Party, the VCP, 
the Vietnamese people have faced oppression in a number of 
areas including religious persecution, wrongful detainment, and 
suppression of expression, assembly, and association. Political 
dissidents are routinely targeted and ethnic minorities face 
repression and discrimination. In the 2004 Religious Freedom 
Report, the State Department designated Vietnam a Country of 
Particular Concern (CPC) principally because of reports of 
worsening harassment of certain ethnic minority Protestants and 
Buddhists. In 2006, Hanoi promised to improve conditions and 
release some of the dissidents. The Bush administration 
subsequently removed Vietnam from the CPC list.
    However, according to numerous accounts since at least 
early 2007, the Vietnamese Governments' suppression of 
dissidents has intensified and its tolerance for criticism has 
even lessened markedly. Beginning in 2009, the government began 
increasing the targeting of bloggers as well as lawyers who 
represent human rights and religious freedom groups, 
particularly those who are linked to a network of pro-democracy 
activists. Human Rights Watch and other rights groups have 
reported an increase in the incidents of forced labor, torture, 
and prison deaths. According to numerous accounts, the 
government's suppression increased in 2010 and 2011. And in 
2011 alone, 21 people died in police custody. This is a very 
troubling trend.
    I will have to leave following the witnesses' testimony 
because of some special obligations with the State of the Union 
address, but I would ask unanimous consent that Congressman Al 
Green from Houston, who represents a great number of 
Vietnamese, be allowed to sit in. Thank you.
    Mr. Smith. No objection.
    Mr. Payne. Thank you, Mr. Smith. I'd like to now yield to 
Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman, and I really want to 
thank all of our witnesses who have been so engaged on human 
rights for being here today and especially our former 
colleague, Joseph Cao. It's good to have you with us on an 
issue which I think really touches all of us. Earlier this 
month, the chairman and I, along with Chairwoman Ros-Lehtinen, 
and also the ranking member, Howard Berman, we sent a letter to 
the State Department. And in that letter we detailed the on-
going human rights abuses in Vietnam and how little things have 
changed.
    In this hearing, we intend and I appreciate the chairman 
holding this hearing, we intend to put that needed spotlight on 
a situation that is very dire, especially for activists and 
many young people in Vietnam. I hope the administration is 
listening to this hearing.
    I think one of the cases brought to our attention speaks to 
all of us, the case of Viet Khang, who is a songwriter in 
Vietnam, and he sits in a Vietnamese jail for simply writing 
songs and posting songs on the Internet. One song he wrote was 
entitled ``Who Are You?'' questioning the conscience of the 
police who brutally assaulted and arrested demonstrators who 
were peacefully protesting. And he, like so many political 
prisoners in Vietnam, should be free today.
    Recently, I think, we've seen a change in pattern. Instead 
of the show trials that we're used to, they're just skipping 
the show trials, the Government of Vietnam, and they're sending 
dissidents straight to administrative detention. Just the other 
day, The Wall Street Journal editorialized against this new 
practice in Vietnam, but as one witness notes, here's how the 
editorial looked to readers in Saigon. Here's The Wall Street 
Journal. They obviously went through a lot of magic markers in 
order to individually censor the Asia edition of The Wall 
Street Journal that was distributed in Saigon. So you've got 
many brave Vietnamese men and women who are standing up for 
their rights, the right to free speech, for the right to some 
measure of freedom, and they deserve our support.
    And what we're talking about today is not some isolated 
case. We're talking about the norm in that society today and 
we'll hear today that the situation, especially for young 
bloggers, young writers, young songwriters, for the youth, it's 
deteriorating in terms of the measure of freedom in Vietnam.
    I have legislation that calls for Vietnam to be placed back 
on the CPC list with respect to religious freedom. I also have 
legislation that Joseph Cao and I worked on that would identify 
and sanction those individuals in the Vietnamese Government 
committing those human rights abuses. It is the least we should 
do. We must do at least this. And we should move these bills 
and I thank the chairman for holding this hearing.
    Mr. Smith. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and thank you for 
allowing me as an interloper to be a part of the committee. I'd 
like to thank Ranking Member Payne for making the request and 
for all that he has done through the many, many years that I 
have known him to curtail human rights violations around the 
world as one of the preeminent spokespersons for human rights 
in the Congress of the United States of America. I'm grateful 
to each of these men for giving me this opportunity to be a 
part of this committee, temporarily.
    I want to thank the witnesses and I must especially thank 
Ms. Vu. It does take great courage to come before a committee 
of Congress and make your statements known to the world. We 
appreciate you for what you are doing to help others. It means 
a lot to have someone who has empirical evidence, firsthand 
knowledge of what's going on presented. Thank you, Member Cao, 
for returning and being a part of this committee. But finally, 
Boat People SOS is known to us in Houston quite well, we 
appreciate what you've done across the length and breadth of 
our city.
    I am very concerned about human trafficking and one of my 
concerns, quite candidly, when properly distilled becomes 
simply is human trafficking, a euphemism for involuntary 
servitude, which is a euphemism for slavery, are people being 
detained against their will and forced to do things that we 
find unpleasant? I'm eager to hear from the witnesses. I can 
tell you that I've heard enough anecdotal evidence from members 
of my district. I have a very large Vietnamese population in my 
district. The ballot is printed in Vietnamese. And that 
population and I have a kinship and I am told quite regularly 
that things are in need of some attention. So I'm honored to 
have this opportunity to acquire some additional evidence of 
things that hopefully I can be of assistance with.
    Thank you again, Mr. Chairman. Thank you, Mr. Ranking 
Member. I yield back.
    Mr. Smith. Thank you, Mr. Green. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I'm interested in 
hearing what the witnesses have to say. I'm hoping that by 
shining the light on these problems, the United States will 
help use its trade policies and finally its moral solution to 
improve the human conditions and the rights conditions in 
Vietnam and elsewhere. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Turner. Let me introduce our 
distinguished panel beginning with former Congressman Anh Cao, 
who was born in Vietnam, and at the age of eight was able to 
escape to the United States with his siblings with the downfall 
in Saigon. He left without his parents. It was an epic journey, 
but one that he engaged in, and certainly he flourished. After 
learning English, he did well in school, and went on to earn 
his undergraduate and master's degrees before teaching 
philosophy and ethics in New Orleans. Congressman Cao became an 
attorney and worked for Boat People SOS and that's how I first 
met him, when he was advocating on behalf of those who took to 
the seas, many of whom ended up in so-called refugee camps 
dotted throughout Southeast Asia and in the region. And he was 
a great, great advocate for those people who had been so 
disadvantaged by the invasion from the North. He has assisted 
Vietnamese and other minorities ever since. He lost his home 
and his office in Hurricane Katrina, but helped lead his 
community as it started to rebuild. He represented Louisiana's 
2nd Congressional District in the 111th Congress, and as I said 
earlier, was a stalwart on behalf of human rights.
    We'll then hear from Dr. Nguyen Dinh Thang who came to the 
United States as a refugee from Vietnam in 1979. After earning 
his Ph.D. from Virginia Tech, he began volunteering with Boat 
People SOS in 1988. Now serving as executive director of Boat 
People SOS, Dr. Thang has worked for the past two decades to 
resettle tens of thousands of Vietnamese Boat People and other 
refugees to the United States and has assisted more than 4,000 
victims of human trafficking, modern day slavery. He has 
received numerous awards for his extensive human rights work. 
Dr. Thang travels to Asia frequently where he documents ongoing 
abuses and strives to rescue victims.
    I would note parenthetically that it was Dr. Thang in the 
1990s who came to this subcommittee, and I chaired the 
subcommittee at the time, with alarming information about how 
there were many refugees in places like Hai Island and all 
throughout Asia, Boat People, some 40,000. And his estimation 
was that at least half of those, maybe more, had been 
improperly screened out from refugee status and were being 
involuntarily repatriated to Vietnam where they were facing a 
very, very bleak future, if not reeducation camps and 
incarceration. He brought that to the subcommittee. As a direct 
result of his intervention, my subcommittee held four hearings. 
I offered legislation on the floor that passed by approximately 
100 votes, a bipartisan amendment, that said no U.S. money will 
be used to involuntarily repatriate these individuals and Dr. 
Thang, at each of those four hearings, including one closed 
hearing where we desperately tried to get the administration to 
realize that these people were refugees and they were being 
sent back improperly in contravention of international law and 
U.S. law. As a direct result, a program called ROVR was 
established because there were friends in the administration at 
the time who saw it as we did, and that program resulted in the 
rescreening of so many, and approximately 20,000 people made 
their way to the United States. I say this with great 
admiration; Dr. Thang was the one who brought it, kept us very 
well informed, and I will be forever indebted for what he 
provided this subcommittee, me and my staff, in terms of 
actionable information.
    Then we'll hear from Mr. Rong Nay who has worked for over 
30 years to improve the lives of the Montagnard people, both in 
Vietnam and in the United States. After coming to the U.S., Mr. 
Nay was part of numerous groups helping the Montagnard people, 
including the Montagnard Human Rights Organization, which was 
founded in 1998, where he is currently serving as the executive 
director. He works on issues such as family reunification, 
refugee resettlement, cultural preservation, and cultural 
challenges that the Montagnard refugees encounter when they 
come to the U.S. Of course, we all have been deeply distressed 
over recent events concerning the Montagnards and we look 
forward to hearing more on that as well as the ongoing 
persecution of people of faith that we know is ongoing and 
totally repressive.
    We'll then hear from Ms. Phuong-Anh Vu who was trafficked 
by a Vietnamese labor export company to Jordan in 2008 where 
she and 260 fellow Vietnamese were exploited in slave-like 
conditions. They went on strike and were beaten by guards and 
police. Ms. Vu quickly rose to become the de facto leader of 
the victims. She sought outside help and subsequently became 
the target of the Vietnamese Government. And as she was being 
returned to Vietnam for punishment, she managed to escape and 
took refuge in Thailand. She eventually resettled in the United 
States as a refugee and Ms. Vu continues to fight to end the 
trafficking of Vietnamese migrant workers, a true hero.
    We'll then hear from Mr. John Sifton who is the advocacy 
director for Asia at Human Rights Watch, no stranger, nor is 
Human Rights Watch, to this committee, where he focuses on 
South and Southeast Asia. He was previously the director of the 
One World Research, the public interest research and 
investigation firm, that specializes in international human 
rights cases. Mr. Sifton traveled to Hanoi and Saigon late last 
year and has been actively raising the Vietnamese human rights 
record with various diplomats, trade representatives, 
officials, international financial institutions, and 
journalists in the context of emerging Trans-Pacific 
Partnership. Mr. Sifton, thank you for being here as well.
    Congressman Cao, please proceed. Congressman Cao, if you 
could just suspend for 1 minute, I didn't see the vice chair of 
the subcommittee, Mr. Fortenberry has arrived and he's 
recognized for such time he may consume.
    Mr. Fortenberry. Thank you, Mr. Chairman, I apologize for 
running a little bit behind, but I'll give a brief opening 
statement and turn to our former colleague, Congressman Cao. 
Thank you for holding this important hearing as we work to 
develop effective bilateral relationships with Vietnam. This 
hearing is of special interest to the Vietnamese diaspora, 
particularly in my home State of Nebraska. Many people of 
Vietnamese descent have chosen to make Lincoln, Nebraska their 
home and build their American dream there. They contribute 
immensely to the vitality of our community and have voiced 
agonized worry about the human rights situation as the 
Vietnamese Government continues to repress groups viewed as 
challenging political authority, especially, as was mentioned, 
country dwellers and minority ethic groups in Vietnam such as 
the Hmong and Montagnard who live far from the eyes of the 
foreign news agencies.
    The persecution also extends to religious minorities. In 
May of last year, the village of Con Dau Catholic parish faced 
government retribution in the form of three lost lives and 
hundreds of injuries in a funeral procession of all things. The 
offense, they were exercising earlier their right of protest 
against when the government decided to sell their land to build 
a resort is my understanding. Simply being a woman or a child 
in Vietnam can be fraught with danger as well.
    According to the State Department's Trafficking and Persons 
Report, Vietnam is both a source and destination country for 
both sex and labor trafficking of women and of children. With 
China facing a shortage of women, Vietnamese women are 
recruited into servitude through fraudulent marriages. The 
Vietnamese Government estimates that approximately 10 percent 
of women entering into arranged marriages may become 
trafficking victims.
    Women who are fortunate enough to enter into legitimate 
marriages with few exceptions are subject to a one- or two-
child policy with tragic consequences. Vietnamese women and 
their families suffer as many as 45 abortions per 100 live 
births compared to 25 abortions in the United States in the 
last decade. It was also reported that this abortion practice 
accounted for 11.5 percent of maternal deaths in Vietnam in 
2002.
    I note that Vietnam was removed as a Country of Particular 
Concern in 2006 by the State Department despite lingering 
concerns about whether that change in status made good sense. 
While economic development and market reforms have spurred a 
relative improvement in the living standards of many Vietnamese 
people, the welfare of the most vulnerable continues to be in 
jeopardy.
    Thank you again, Mr. Chairman, for holding this hearing and 
I welcome our witnesses and look forward to your further 
comments on what I have raised and any other issues that we 
feel--that you feel are necessary that we may need to know. 
Thank you.
    Mr. Smith. Thank you very much, Mr. Vice Chairman.
    The Honorable Anh Cao.

STATEMENT OF THE HONORABLE ANH ``JOSEPH'' CAO, FORMER MEMBER OF 
                            CONGRESS

    Mr. Cao. Thank you, Mr. Chairman. Chairman Smith, Ranking 
Member Payne, and distinguished members of the Subcommittee on 
Africa, Global Health, and Human Rights, I would like to thank 
you for holding this important hearing on the human rights 
conditions in Vietnam.
    The struggle for religious freedom and the promotion of 
justice and democracy in Vietnam remain in the hearts and minds 
of the 1.5 million Vietnamese-Americans presently living in the 
United States. Therefore, your dedication in support of these 
issues will be deeply appreciated and remembered by those who 
continue to struggle and fight for these righteous causes.
    Mr. Chairman and members of the subcommittee, all human 
beings are born free and equal in dignity and rights. These 
rights include the right to freedom of thought, conscience, and 
religion which encompasses the freedom to change a person's 
religion or belief and freedom either alone or in a community 
with others and in public or private to manifest his religion 
or belief in teaching, practice, worship, and observance. These 
words are expressed in Articles 1 and 18 of the United Nations 
Universal Declaration of Human Rights, respectively.
    Vietnam, a member of the United Nations, has systematically 
violated these rights and has no intention of keeping the 
promise that it made to the U.S. Congress in 2006 to steadily 
improve its human rights record as a condition for the 
Congress' support of Vietnam's entry into the World Trade 
Organization. Sadly, instead of improving its human rights 
records, the Government of Vietnam has increased its repression 
of dissenters and religious leaders. To continue its imposition 
of an iron will on the people of Vietnam, the government 
detains, imprisons, places under house arrest, and convicts 
individuals for their peaceful expression of dissenting 
political or religious views, including but not limited to 
democracy and human rights activists, independent trade union 
leaders, non-state sanctioned publishers, journalists, 
bloggers, members of ethnic minorities, and unsanctioned 
religious groups.
    The Government of Vietnam especially continues to limit 
freedom of religion, pressures all religious groups to come 
under the control of government and party control management 
boards and restricts the operation of independent religious 
organizations. Religious leaders who do not conform to the 
government's demands are often harassed, arrested, imprisoned, 
or put under house arrest.
    As noted in the October 2009 report of the United States 
Commission on International Religious Freedom,

        ``There continues to be far too many serious abuses and 
        restrictions of religious freedom in the country. 
        Individuals continue to be imprisoned or detained for 
        reasons related to their religious activity or 
        religious freedom advocacy. Police and government 
        officials are not held fully accountable for abuses. 
        Independent religious activity remains illegal and 
        legal protection for government-approved religious 
        organizations are both vague and subject to arbitrary 
        or discriminatory interpretations based on political 
        factors. Moreover, property disputes between the 
        government and the Catholic Church in Hanoi led to 
        detention, threats, harassment, and violence by 
        contract thugs against peaceful prayer vigils and 
        religious leaders.''

    A case that succinctly paints and substantiates the words 
of the Commission on International Religious Freedom is the 
case of Thai Ha Parish, a Catholic parish in Hanoi. The parish 
was founded by the Redemptorist Order in 1935 with the 
intention of providing educational and medical services to the 
region. Soon after the Communist government took over Hanoi in 
1954, it confiscated schools that the parish had established, 
leaving only the facilities to house the Redemptorist Brothers, 
the church building, the community center, and a few small 
structures around the church. But that was not enough for the 
communist government. It subsequently seized all the land 
belonging to the parish around Thai Ha and underhandedly 
proceeded to take control of the remaining buildings that it 
did not want to confiscate in 1954. For example, in 1959, the 
government forced the Redemptorists to loan one of the two 
buildings housing the brothers so that the government could 
turn it into a school. Because it was for a good cause, the 
order complied. In 1972, the government without due process 
seized the remaining buildings and converted both buildings 
used to house the brothers into a hospital. Subsequently, the 
government borrowed the community center and set up a wool 
knitting factory, then it borrowed the building at the front of 
the church and turned it into a Red Cross station. Finally, it 
borrowed the last structure belonging to the church and turned 
it into a machine shop to initiate the Thang Long Cooperative.
    In 2008, during peaceful prayer vigils, calling for the 
return of government confiscated church properties, contract 
thugs harassed and dispersed the protesters and destroyed 
church property. In its final act of usurpation, the government 
then decided only 4 months ago to construct a waste treatment 
plant on or near parish grounds to effectively seize the rights 
of ownership and stewardship after they forcibly took over the 
right of use. Again, the parishioners protested and again the 
government sent in their thugs. Father Nguyen Van Khai 
described what happened. For a number of days following October 
2, 2011, high-powered loud speakers belonging to Quang Trung 
administrative area beamed toward Thai Ha church the 
government's plan to build a wastewater treatment plant for 
Dong Da hospital on the 2000 square meter lot belonging to the 
church. Later events took place over a number of days. First, 
representatives of Dong Da Hospital came to the church to 
deliver the message. Subsequently, the Quang Trung People's 
Committee requested a representative of Thai Ha church to come 
to its offices to hear the message. In response, Thai Ha parish 
promptly submitted a request to the appropriate government unit 
to one, stop all activities under the wastewater treatment 
project and two, return to the parish the land and buildings 
that the government borrowed. Furthermore, the parish used an 
electronic sign to display its legitimate demand. Concurrently, 
the government-owned media launched a furious campaign of 
libel, slander, false accusations and threats against 
parishioners, brothers, and priests in Thai Ha. Following this, 
the government resorted to its familiar tactics. It's employees 
and police mustered a number of strangers, i.e., outside thugs 
who came to the church to threaten, harass, and terrorize 
priests, monks, and parishioners. On November 8, 2011, a 
government agent came to Mr. Dung's house and formed a heated 
discussion. The police used this as an excuse to arrest Mr. 
Dung. The underlying reality is that like so many other 
Vietnamese, Thai Ha parishioners are being victimized by a 
corrupt regime that only cares about its own privileges. The 
regime frequently makes arbitrary decisions and backs them up 
by force instead of following the law. The government-owned 
media is trying to paint us as putting road blocks to stop a 
humanitarian project that will yield public benefits. However, 
nothing is further from the truth. We follow the law even as 
the government violates the law through its total disregard of 
its citizens' rights, the rights that the government is 
supposed to respect and protect.
    Similar incidents occurred at Bau Sen, Loan Ly, Tam Toa, 
Dong Chiem, and Con Dau. But religious repression is not 
limited to Catholics. The Unified Buddhist Church of Vietnam 
suffers persecution as the Government of Vietnam continues to 
restrict contacts and movement of senior clergy for refusing to 
join state-sponsored Buddhist organizations. The Bat Nha 
Buddhist monastery at Lam Dong Province was attacked by the 
government thugs in October 2009 and about 400 monks and nuns 
were physically abused and forcibly evicted from the monastery. 
Members of the Cai Dai, Hoa Hao, Mennonites, and Montagnard 
Christians suffered detention and imprisonment. Faced with 
these atrocities, the Obama administration's approach to the 
human rights condition in Vietnam is to stand by and watch. 
Although administration officials express concerns, they 
continually push aside Vietnam's human rights abuses to further 
the interests of the administration. This approach stands in 
stark contrast to the intent of the Founding Fathers of this 
great Nation who built the foundation of this country on 
principles of religious freedom and tolerance.
    The United States has to be more assertive in forcing 
Vietnam to adhere to the promises that it made to the U.S. 
Congress in 2006 and this requires the passing and enforcing of 
the Vietnam Human Rights Act.
    Again, I would like to thank Chairman Smith and members of 
this subcommittee for your commitment and support for the 
people of Vietnam. I know that if we persevere in this fight, 
Vietnam will one day be a free and democratic country. Thank 
you.
    [The prepared statement of Mr. Cao follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Congressman Cao, thank you so very much for that 
testimony.
    Dr. Thang.

STATEMENT OF NGUYEN DINH THANG, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang. Mr. Chairman, Ranking Member Payne, Congressman 
Royce, Vice Chairman Fortenberry, Congressman Al Green, and 
Congressman Turner, first of all, I would like to take this 
opportunity to send you our best wishes for Tet, that is, our 
Lunar New Year. That was yesterday. And I also would like to 
point out that we truly appreciate the fact that Congressman Al 
Green and Congressman Royce have been working very closely with 
our offices in Houston and in Orange County on different issues 
relating to the local communities and also relating to human 
rights issues in Vietnam.
    I'd like to point out one fact, a little known fact about 
Congressman Payne. You stood tall and strong beside us in the 
darkest moments when the international community and countries 
of the region pushed back the Boat People. Thank you very much, 
Congressman Payne.
    First of all, I would like to express our strong support 
for the Vietnam Human Rights Act. I also support the call for 
the administration to place Vietnam on Tier III in its upcoming 
TIP Report. I also strongly support the redesignation of 
Vietnam as a Country of Particular Concern. And I also would 
like to call on our whole State Department to do a better job 
at reporting the violations of human rights, the gross abuses 
committed by the police, the widespread use of torture, 
atrocious forms of torture by the police and the attacks on the 
ethnic minorities in Vietnam. These crimes and violations have 
been under reported by our own State Department.
    Today, I would like to focus on three specific areas of 
human rights violations that have not yet been given 
appropriate recognition so far. First of all is the systematic 
and widespread modern-day slavery, not just government 
complicity, but the Government of Vietnam was behind it. The 
Vietnamese Government operates those programs. Second, I'd like 
to touch on the widespread use of torture against political 
dissidents, people of faith, religious leaders, and also the 
increased frequency of police brutality. And we have some 
pictures that I would like to request the permission of the 
chairman later on after all the testimony to show as an 
illustration of the true face of brutality committed by the 
police.
    And finally, I'd like to talk about religious persecution 
focusing on the Hmong Christians. There has been very little 
news that could get out of Vietnam since last May. There was a 
massacre of Hmong Christians in the northwestern region of 
Vietnam, but we obtained never before seen footage and pictures 
to show to the members of this subcommittee. Very important.
    So first of all, let me talk about slavery-like conditions 
in government-run programs. It is very critical to make the 
distinction between two different categories of human 
trafficking in Vietnam. One would involve national policies, 
national programs, run by the government, sanctioned by the 
government, operated by the government, and protected and 
defended by the government such as human trafficking under the 
cover of Vietnam's national policy of labor exports. Two, the 
forced labor inflicted on not only the rehab centers as 
reported by Human Rights Watch, but also subjected--a lot of 
political dissidents have been subjected to those forms, single 
forms of forced repatriation. I just returned from an extended 
trip to Southeast Asia and I talked to over 100 victims and 
what I found out was in prison camps in Saigon, Vietnam right 
now, dissidents are being used for forced labor, to produce 
goods for exports overseas. So those are the forms, the most 
egregious forms of modern-day slavery that the Vietnamese 
Government doesn't want anyone to talk about.
    The Vietnamese Government in recent days did invite 
organizations to go into Vietnam to fight the other forms of 
trafficking, the privatized form of trafficking that usually 
involves only small fish, small-time criminals and some low-
ranking police officers and those who are sex trafficking of 
women and children to Cambodia and other countries. We don't 
condone that, but that is a much smaller problem compared to 
labor trafficking in Vietnam. And also there's an issue of 
child labor trafficking within Vietnam as well.
    So I just came back from Southeast Asia and I talked to a 
lot of people there and we monitored constantly the conditions 
in Vietnam. Just last year, the Vietnamese parliament, the 
National Assembly, passed the first law against trafficking. 
For the first time, they did mention labor trafficking, 
however, it was very disappointing as a document because one, 
it doesn't include the standard definition of human 
trafficking. Initially in its initial draft there was a 
definition, but then they pulled it out in the law that got 
passed. That just became effective a few weeks ago on January 
1st. So the law that got passed essentially excludes all labor 
export companies in Vietnam from being incriminated as the 
source of the trafficking chain from Vietnam to other 
countries. And also there's no penalties prescribed against the 
traffickers.
    Every year, Vietnam exports about 80,000 to 100,000 migrant 
workers. That is a $2.2 billion industry, very protected by the 
Government of Vietnam. And time and again, we have to deal with 
the Vietnamese Government sending these delegations not from 
the Embassy but all the way from Hanoi to the American Samoa, 
to Jordan, to Malaysia, even to Houston to silence the voice of 
those few courageous victims who came forth to expose the 
involvements of the Government of Vietnam in trafficking them. 
And over the past 3\1/2\ years, we have rescued thousands of 
victims and we did thorough research through interviews of the 
victims and we identified over 35 labor export companies from 
Vietnam who are involved, completely involved in human 
trafficking. And we have brought this to the attention of the 
Vietnamese Government for the past several years. To this day, 
not a single case has been investigated. Not a single case 
prosecuted. But instead, the victims themselves had been 
prosecuted and threatened. So that is the state of human 
trafficking and the fight against human trafficking in Vietnam.
    Now I would like to mention very quickly about the 
Vietnamese ploy to play up its fight against the other form of 
human trafficking, the privatized form of human trafficking, 
just try to cover up the bigger problem of labor trafficking. 
So please do pay attention to the latter problem.
    Now with torture. There has been widespread use of torture 
from my direct interviews with the victims. In late 2010, Prime 
Minister Nguyen Tan Dung asked Secretary Clinton, Hillary 
Clinton, for assistance to help Vietnam prepare itself to 
ratify the U.N. Convention Against Torture. It should be very 
simple. There is no need for technical assistance. Just give--
issue a decree to stop the use of torture. We have observed a 
significant increase in the use of torture. Forms of torture 
would include beating of the victims in the chests and the 
sides and legs; handcuffing the victims up around the window 
and beating him up with batons and electric rods; stripping the 
victim naked, including women, and flogging him or her with a 
belt; hanging the victim to the ceiling beam and punching in 
the stomach; drawing a large amount of blood every week to 
debilitate the victim; standing the victim in water, electro-
shocking him or her; applying electric shocks to the victim's 
private parts, genitals for men, and vagina for women. 
Horrendous forms of torture.
    And what we found out that was even more troubling, the 
police in Vietnam maintain special torture chambers outside of 
the prison. For instance, I talked with several Montagnards who 
returned to Vietnam after being rejected by UNHCR. And they 
were told, ``You'll be fine, just go back to Vietnam. You'll be 
safe.'' So they went back to Vietnam and they got arrested in 
Tay Ninh. And the police in Tay Ninh put them in prison, 
tortured them every day and for those few who were considered 
stubborn, in the dead of the night at 1 a.m., that person would 
be pulled out, taken to the special place called BC14, just 
outside the prison and that's where the police operate a 
special torture chamber with special instruments and equipment. 
And the guys are very big, muscular, vicious, they are well 
trained, specialty trained to inflict torture on the victims. 
Most people had to admit to crimes that they never committed. 
And then they were brought back to the prison around 5 a.m.
    And we have compiled reports of all those interviews. I'd 
like to submit them to the subcommittee at another time.
    We also have pictures of police brutality inflicted against 
people of faith that I'd like to show afterwards.
    And finally, about the Hmong Christians. January of last 
year, the police came into a Hmong village of Xa Na Khua in the 
Muong Nhe District and in that Hmong village there were about 
100 households all converted to Protestantism and all the 
government was to raze the entire--raze flat the entire 
village. The explanation was this: ``Either you renounce your 
faith or you have no place here. Protestantism is an American 
religion. If you stick to your religion, go to America to till 
America's land. Go to America to follow America's religion.'' 
And then on January 28th, they proceeded to demolish the homes. 
So they completed the demolition of 13 homes and they stopped 
because of Lunar New Year and 15th of March last year, they 
came back. The government came back with the military and 
workers to break down all the remaining homes and therefore in 
May, on May 1st, the Hmong villagers they gathered in Muong 
Nhe, a small village in Muong Nhe District. And other Hmong 
across the country who suffered the same atrocities got word of 
that, so they came to the same place from across the country 
and there were 4,000 to 5,000 of them. And the police moved in, 
mobile police and the riot police and the military moved in 
with guns, batons, electric rods and assaulted these Hmong 
Christians. And their only demand was one, don't destroy our 
homes, don't take our land; two, allow us to be Christian. And 
you know that in the three provinces of Son Lai, Lai Chau and 
Dien Bien in the northern part of Vietnam, there's not a single 
church. There's none, none allowed by the government. And 
that's their peaceful demonstration, very simple demands and 
the troops attacked them. A lot of people died and some got 
buried alive. And we got a list I'm going to submit for the 
record of 14 who got killed, just partial list. And these 14, 
we only verified by talking to either eye witnesses or the 
relatives of the deceased.
    And according to a few who made it to Thailand, hundreds 
are still in hiding to this day in the jungle and one by one 
they are being hunted down by the police. Just last month, one 
of them got shot dead when he tried to escape as the police 
approached. So that is the degree of religious persecution. 
We're not talking about harassment. This is egregious. And with 
your permission, I'd like to show later some of those footages, 
you can see with your own eyes the atrocities committed by the 
Government of Vietnam against people of faith. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Thang follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Dr. Thang.
    Mr. Nay. And at the end of the testimony, we will show 
those pictures, your pictures.

STATEMENT OF MR. RONG NAY, EXECUTIVE DIRECTOR, MONTAGNARD HUMAN 
                      RIGHTS ORGANIZATION

    Mr. Nay. Mr. Chairman, my name is Rong Nay, and I am the 
executive director of the Montagnard Human Rights Organization. 
I represent the Montagnard people living both in the U.S. and 
in the Central Highlands of Vietnam.
    I would like to thank you, Mr. Chairman and members, for 
the honor and opportunity to share our feelings and experiences 
about the ongoing human rights abuses in Vietnam. I had the 
honor to testify at the first U.S. congressional hearing about 
Montagnards sponsored by former U.S. Senator Jesse Helms in 
1998. I am very sad to report that human rights conditions in 
Vietnam have gotten much worse for the Montagnard people in the 
past decade. My testimony is a summary from my written 
statement that focuses on this area.
    Religious persecution. After U.S. normalization with 
Vietnam, the Government of Vietnam said there was freedom of 
religion in Vietnam, but in reality, it is not true. The 
freedom of religion of the Vietnamese Government is only to 
allow worship in government-sponsored churches, not in house 
churches. Montagnard pastors continue to be arrested, tortured, 
and persecuted. Human Rights Watch has published a detailed 
report in 20ll on the continuing religious persecution of 
Montagnards in the Central Highlands.
    We call on the U.S. Government to reinstate the Vietnam 
designation as a Country of Particular Concern for extreme 
violations of religious freedom are personal abuse. The 
Montagnard Christians are forced to renounce their faith. They 
are beaten, many put in jail, suffer long and terribly in jail 
and prisons without enough food, medicine, even family visits. 
Many suffer solitary confinement, torture. The Vietnamese 
Government continues to arrest, torture, and jail to Montagnard 
Christians. There are currently 390 Montagnard Christians in 
prison for their religious or political beliefs for up to 16 
years.
    Mr. Chairman, we recommend that the release of all the 
Montagnard prisoners is negotiated and they are released before 
any more U.S. Government defense and trade treaties with 
Vietnam go forward. We ask that this list be included in the 
record.
    Mr. Smith. Without objection, it will be made a part of the 
record.
    Mr. Nay. The Montagnard refugee protection. The UNHCR site 
in Phnom Penh, Cambodia closed in February 2011. Montagnard 
asylum seekers now have no place to feel safe and find 
sanctuary. Asylum seekers have fled to Thailand, been arrested 
and put into detention. We have reports of Montagnards hiding 
in the jungles in Vietnam right now because they have no safe 
place to hide. They are desperate. There are hundreds of 
Montagnards who have attempted to flee persecution in Vietnam 
and were hunted down by the police, beaten and put in jail.
    We urgently recommend that the U.S. State Department, in 
cooperation, with UNHCR, create a process and a place at the 
U.S. Consulate in Ho Chi Minh City or another country, which 
allows Montagnard asylum seekers to have a fair interview with 
a UNHCR or U.S. official, taking into account the very real 
conditions of ethnic discrimination and persecution that many 
Montagnards face in Vietnam. We respectfully request that the 
U.S. State Department re-open its Refugee Program within 
Vietnam because there are many claims of well-founded 
persecution within Vietnam. Why are the Montagnard persecutions 
being ignored by the U.S. Government?
    We also have proposed that a U.S. satellite consular office 
be established in the Central Highlands of Vietnam. Such an 
office would be beneficial to facilitate refugee claims and 
standard immigrant visa processing. This satellite office could 
also be utilized for humanitarian and development assistance 
programs focusing on Montagnards in the Central Highlands. The 
U.S. Department of Defense has shown interest in establishing 
humanitarian aid programs in the Central Highlands.
    Vietnam's ethnic cleansing policy. The Montagnard 
indigenous peoples are crying out to keep our ancestral land, 
our language, and our culture. We ask for help from the U.S. 
Government, the United Nations and the world community to help 
us. Many of our ancestral lands have been seized by the 
Communist government for rubber or coffee plantations. The 
Government of Vietnam accuses our Montagnard people of causing 
trouble, but we want only to keep our land and our farms, our 
heritage, and our survival.
    The need for development assistance. The United Nations, 
the European Union, and the U.S. State Department have all 
acknowledged that the rate of poverty for the Montagnard 
indigenous peoples is much higher than the majority Kinh or 
Vietnamese populations. We ask and recommend that the U.N. and 
the U.S. put more emphasis on development assistance, 
scholarships, boarding schools and Montagnard education in the 
Central Highlands.
    Montagnards do not have the same opportunities in education 
and development as Vietnamese. For example, over 15,000 
Vietnamese students have been sent to the United States for 
education, but not a single Montagnard college graduate is 
allowed to have a scholarship to the U.S.
    The abuse of free emigration. The Government of Vietnam 
continues to break the agreement of free emigration that was 
outlined in the U.S. Jackson-Vanik Amendment that was tied to 
the U.S.-Vietnam Trade Agreement in past years.
    Mr. Chairman, it is our privilege to come here today to 
tell you the truth about the Montagnard human rights abuse that 
the Montagnard indigenous peoples are facing right now in 
Vietnam's Central Highlands. We Montagnards are treated like 
enemies in our own homeland. Hundreds of prisoners in Ha Nam 
prison are suffering terrible abuse and isolation, and other 
Montagnard men, women and children quietly suffer in their 
villages under constant fear and police surveillance. We hope 
that the subcommittee today, the U.S. Government and the world, 
will hear our prayer and plea for help. Thank you very much for 
the opportunity to share the plight of our Montagnard people in 
the Central Highlands of Vietnam and our recommendations on how 
to help. Thank you, sir.
    [The prepared statement of Mr. Nay follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Nay, thank you so very much for your 
testimony and very practical recommendations.
    I'd like to now recognize Ms. Vu for such time as she would 
like to use.

  STATEMENT OF MS. PHUONG-ANH VU, VICTIM OF HUMAN TRAFFICKING

    [Testimony delivered via translator.]
    Ms. Vu. I would like to say thank you for the opportunity 
to be here and wish your family a happy Lunar New Year.
    I grew up in poverty in a province called Lao Cai in 
Vietnam. My family is Catholic so we have difficulties living 
there under the Vietnamese Government policy of persecuting 
Christian people.
    The government has the policy of persecuting Christian 
Hmong people and anyone that believes in Christianity. My 
family, we have the two of us, my sister and I. And my father 
died when I was 1 year old. When I turned 16, my sister was 
kidnapped and she's been missing since then. Heeding the 
Vietnamese Government's call for citizens' participation in the 
labor export program in 2008 I was transferred to Jordan and 
working in a sewing factory for a Taiwanese contractor. I was 
among 276 women and with the promise to only work 8 hours a day 
and that we would earn $300 a month. That is an enormous amount 
of money for myself, along with the people that came with me.
    Myself, along with all my friends, each of us had to pretty 
much mortgage our home and borrow money, $2,000, to participate 
in this program. We were never given any contracts to sign and 
it wasn't until we got on the plane where they gave us the 
contract. When we got to Jordan, it turns out that nothing was 
what was promised to us. When we arrived, immediately they took 
all of our paperwork, all of our passports, and immediately put 
us to work. Then starting the next day, we have to work and the 
shift was 16 hours a day.
    I worked for 10 days and I received $10. I was very upset 
and surprised, so I asked the employer and the employer's 
response was that I need to talk to the people who brought me 
here which would be the Vietnamese Government. I went on 
strike, along with some of my friends, to demand the payment 
for what was promised. We stopped working for 10 days and the 
owner gave me an ultimatum, gave us an ultimatum after that. 
They withheld food, electricity, and water from us. A lot of 
us--some of them were afraid, so they returned to work, but 176 
of us remained on strike. A woman named Vu Thu Ha, she's a 
representative of the labor export company, she led a group of 
people who came to our rooms and started torturing us.
    All the women there are like me, very small, and tiny and 
weakened by not having food and so forth. So they were beaten. 
I was beaten, along with--some of our friends, they hit them, 
smashed their head on the floor. So it was really brutal.
    I witnessed myself that some of my friends were really weak 
and not able to defend themselves and their hair was pulled 
like an animal and it's very heartbreaking. And they continued 
to beat us and I didn't know what to do, so I took a cell phone 
and tried to record what was happening, so they started beating 
me and the bruise is still there on my head and it's still 
there.
    So I was heartbroken to see for myself all the women having 
to suffer through this. What I didn't understand was that after 
the owner of the company witnessed us all being beaten and he 
did not do anything and then afterward they all were shaking 
hands. So I didn't understand why that was happening. We were 
isolated and confined in rooms. We tried to get help and scream 
through the windows. Nobody came. The Jordanian police were 
there, but they were there to help beat us, rather than helping 
us.
    A lot of my friends were vomiting blood and they were 
obviously seriously injured. I tried to call for help and no 
one came to help us. So I didn't know what to do so I have to 
find food and medicines to help my friends. I had to gather 
everything that we have and even the tampons for women to sell 
to get the money to buy noodles for my friends. I'm sorry, but 
it gets very emotional for me.
    And then one day the Vietnamese Government delegation came. 
I was happy because I thought they would be there to help us. 
But it turned out they came, it was very disappointing because 
not only did they not help us, but they also threatened me. The 
reason they threatened because I was the one that contacted the 
newspaper in Vietnam. They did an article and the article got 
to Dr. Thang, that's how he knew about it and Dr. Thang sent us 
money and that's why they came to threaten me.
    I used the money that was given from Dr. Thang to get 
medicine for my friends, but the government accused me of 
collaborating with the NGOs for my own benefit. I asked Dr. 
Thang to help my friends because most of them were very sick 
from being beaten and Dr. Thang arranged to have some 
physicians from IOM to come and help them. After the IOM 
delegation came and left, we were confined and isolated again 
and we were not allowed to leave. Then we were able to return 
to Vietnam and I learned that it was thanks to the Congressman 
and Dr. Thang.
    There are two gentlemen named Truong Xuan Thanh and Tran 
Viet Tu that announced I was returning home and there were 
threats that I would be imprisoned when I returned home. Dr. 
Thang helped me escape and when I got to Thailand I was able to 
escape from the government. The journey of my escape was very 
long and time is limited, so I won't be able to explain all 
that right now. While I was in Thailand I was threatened by the 
Vietnamese Embassy and they said they would cut me into 
thousands of pieces. And I have that recorded, that 
conversation. While I was living in Thailand for 3 years, there 
was a lot of suffering including for my mom and it was very 
emotional for me while I was staying there.
    The most heartbreak for me was my 3-year-old daughter was 
electrocuted and died and she was not allowed to be buried 
unless I am home. They wanted me to go home before they can 
allow her to be buried. I was ready to go home to at least bury 
my daughter, but I learned that the police, the Vietnamese 
police were surrounding my home.
    One of my friends who was beaten has died because of the 
injury. I don't know what else to say. I just wanted to send my 
gratitude to Dr. Thang and Congressman Smith and the panel and 
the U.S. Government for allowing this hearing and hope that it 
will help my people. I know there's going to be a lot of 
uncertainties and threats for me participating in this hearing. 
However, I chose to do it because I don't want a second Phoug-
Anh like myself. I would like to be able to prevent this from 
happening to other people.
    I wish that everyone on the panel along with everyone here 
in the room now that you have heard my testimony that you would 
raise the voice and do something to help the Vietnamese women 
from suffering from human trafficking.

    [Note: An edited version of the previous oral testimony, 
provided by Ms. Vu, appears in the appendix.

    [The prepared statement of Ms. Phuong-Anh Vu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much for that extraordinarily 
moving testimony. It moves this subcommittee and moves, I'm 
sure, the members of this committee to do even more to combat 
human trafficking so that there are no victims, hopefully fewer 
and then no victims. So your testimony will be pivotal, so 
thank you so very much for sharing it. If there is retaliation 
against you, your friends, your family, or anyone--please, let 
us know about that. We will also alert the administration as to 
that retaliation, and I know in a bipartisan way we will do 
everything we can to ensure that that does not happen, because 
again, coming here was an act of bravery, especially when an 
Embassy person tells you they will cut you to pieces. After 
hearing Dr. Thang and others explain the widespread use of 
torture which includes cutting, it is a threat that cannot be 
taken lightly and it brings nothing but dishonor to the 
Vietnamese Government.
    Mr. Sifton?

STATEMENT OF MR. JOHN SIFTON, ADVOCACY DIRECTOR FOR ASIA, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you also for the invitation to testify 
today and I would echo what other witnesses said and all of us 
at Human Rights Watch appreciate the subcommittee's interest in 
the human rights situation in Vietnam and welcome the efforts 
today to address it.
    The other witnesses today and the members of the 
subcommittee themselves already provided a lot of information 
about many of the human rights issues in Vietnam today 
including the crackdowns on religious activity, the problems 
facing ethnic minorities, the increased attacks on political 
dissidents, migrant and trafficking issues, and the worsening 
crackdown on free expression generally.
    I will add from the written version of my testimony. 
There's some issues with land rights and land confiscation 
which need a little bit more attention paid to them and some 
continuing problems with torture and police brutality which we 
highlighted, I highlighted in the written version of my 
testimony. There's also these worrying new facts about forced 
labor camps, administrative detention centers. And we don't 
have time to run through each of these points now again, but 
again, I've provided details in each of the points in my 
written version of the testimony.
    In terms of the overall picture, I can sum it all up in a 
simple sentence. The state of human rights in Vietnam is very 
poor and it's growing worse. As the other witnesses have noted 
in the last year, the government has actually intensified its 
repression of activists and dissidents, bloggers, writers, 
human rights defenders, land rights activists, anti-corruption 
campaigners, and religious and democracy advocates, advocates 
for minorities, and all of these folks from all across 
Vietnamese society are being subject to harassment and 
intimidation and arrest and imprisonment and torture. And I'm 
not even mentioning fully the issues of Internet restrictions, 
a topic on which you could easily have an entire hearing unto 
itself. But suffice it to say we're seeing increased evidence 
on that front of government filtering of Internet content, 
blogs blocked by local Internet service providers, comments 
critical to the government being removed from news postings, 
Facebook is blocked intermittently in many areas. And indeed, 
the only reason it's not being blocked everywhere appears to be 
the government hasn't completely figured out how to do that. 
The government is growing increasingly sophisticated in its 
filtering. It's not easy to block the Internet because of its 
design and its set up, but as China has shown it's possible and 
it's looking increasingly like Vietnam is following the China 
model.
    I'd also repeat what the other witnesses have said 
including Congressman Cao which is that land rights issues, 
land confiscation issues, both for ethnic minorities and 
religious groups and just for Vietnamese citizens across the 
country is an area of increasing concern. And again, police 
brutality, torture, absolutely is another issue I flagged in my 
written version of my testimony which Dr. Thang mentioned.
    Another issue though just to flag right now very quickly is 
administrative detention. In the report we issued last 
September, ``The Rehab Archipelago,'' Human Rights Watch 
documented a lot of abuses in these administrative detention 
centers and that report I'd love to submit to the report of 
this hearing. The details are all in there, but I just want to 
note now that the administrative detention is not just for drug 
users. Drug users were what we talked about in that report. But 
it was also reported to us of Vietnamese citizens placed in 
administrative detention for being homeless, for engaging in 
prostitution. There's even a recent case of authorities using 
administrative detention camps for dissidents. Last week, last 
November, excuse me, a People's Committee in Hanoi ordered 
police to send a prominent land rights activist to an 
administrative detention center for 24 months. It's that news 
article that Congressman Royce referred to that resulted in 
this Wall Street Journal article being written which then was 
blacked out in the editions that were delivered in Saigon at 
least. And it speaks for itself.
    I can also offer to the subcommittee the actual text of the 
article that was blacked out in case you actually would like to 
see that.
    Mr. Smith. Without objection, we'll put in both the blacked 
out as well as the full.
    Mr. Sifton. I'd echo and repeat Dr. Thang's point about 
products produced in forced labor entering the supply chain, 
including possibly into the United States. A good example of a 
product like that is cashews. Members of the subcommittee may 
want to think about that the next time you're offered some 
cashews, for instance. Cashew nuts don't have certificates of 
origin like diamonds do, so you can't prove that a specific 
cashew nut comes from a particular country, let alone a 
particular forced labor camp. But it's a fact that Vietnam is a 
leading exporter of cashews in the world and the United States 
is its biggest importer of cashew nuts in the world. So if you 
perhaps eat 100 cashews over the year, there's a chance that 
some of them were shelled in a forced labor camp in Vietnam. 
And I would note that food writers now coin the term ``blood 
cashews'' to refer to Vietnamese cashews. This is perhaps the 
first report where I ever engaged in advocacy, not just with 
the State Department and the White House and PEPFAR, but with 
food writers. I even corresponded with celebrity food writers 
like Anthony Bourdain about this issue.
    So I raise these issues in order to make a point. There's a 
growing global awareness today that Vietnam is a country that 
has a very problematic human rights record and it's getting 
more attention. It's in the public consciousness and this 
provides us a really great opportunity to talk about what can 
be done and how U.S. power can be leveraged to affect serious 
improvements on human rights in Vietnam. That's really how I'd 
like to end.
    There are several possible approaches I want to offer. The 
State Department, as you referred to in your opening 
statements, is negotiating a strategic partnership with the 
Vietnamese Government. The U.S. Trade Representative is 
negotiating with Vietnam in the context of the Trans-Pacific 
Free Trade Agreement. So obviously, the administration has a 
lot of levers to pull and push with Vietnam. Our understanding 
is that the State Department and the U.S. Trade Representative 
are pulling and pushing those levers. Michael Posner, the chief 
of the State Department's Democracy, Human Rights, and Labor 
Section has been a very vocal critic. During the recent U.S.-
Vietnam human rights dialogue, he didn't pull any punches. He 
arranged to have the Vietnamese Government delegation sit down 
directly with us at Human Rights Watch and we gave them all 
kinds of criticism.
    Secretary Clinton was very vocal during her trip with 
President Obama through Hawaii and on to Bali during the East 
Asia Summit last November. She made clear Vietnam's human 
rights problems are an impediment to reaching better diplomatic 
relations with Vietnam and other U.S. officials have made the 
same point, including Members of Congress very recently have 
said the same thing. But it's vitally important not to let up 
the pressure and that's what I really want to say today. The 
test will not come now, but will come at the 11th hour, some 
time in the next few years when the State Department is 
finalizing a strategic partnership, military to military 
relationship. The Pentagon will be involved. And the U.S. Trade 
Representative will be completing its agreement with the TPP 
nations, including Vietnam.
    Let me say as an aside, I very much doubt that the TPP 
negotiations will be finalized this year, despite what the U.S. 
Trade Representative says, but whenever it happens, U.S. 
resolve on human rights in Vietnam has to remain steady and 
strong. So this subcommittee, as well as the Vietnam Caucus and 
other important players, are really important actors in 
clarifying and conveying those concerns to the administration.
    This is what we think and I think this is what the 
administration thinks. I hope it's what you think. The U.S. has 
an agenda for change here. The idea is to encourage Vietnam to 
improve its human rights practices and that will enable better 
international relations, increase military to military 
engagement, better trade engagement, but there can't be a last 
minute change in heart. You can't have the administration 
suddenly leaping to a different idea, suddenly offering a new 
doctrine, suddenly making some claim based on faith that 
Vietnam is going to change gradually, organically, it will take 
time, that the change will be more likely when the United 
States engages with Vietnam, that we should engage with Vietnam 
because that will bring about change. Those are the cliched 
theories of change that were offered with China in 1994 when 
the Most Favored Nation status was up and we can see how well 
that worked out.
    So our request to you is simple. Don't let up. The 
administration may come later and offer the theory that I just 
articulated and I imagine you'll hear it from the U.S. Trade 
Representative's office first. And I'm saying please don't 
accept it. Don't take that bill of goods. Vietnam needs major 
reforms and if they don't make them, Congress should just tell 
the administration, whatever administration it is, that it 
doesn't support broader agreements. Vietnam needs the United 
States more for its strategic objectives than the United States 
needs Vietnam. And that's leverage that just can't be wasted.
    So we greatly appreciate your consideration and our 
recommendations and as the other witnesses have said, thank you 
for allowing me to testify.
    [The prepared statement of Mr. Sifton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Sifton, thank you very much for your 
testimony. Your report, we would like to make a part of the 
record, so if you could submit that, it would be very helpful. 
And your final words certainly were an indictment of the 
Vietnamese Government. I mean the deterioration, worsening 
crackdown on free expression, worrying new facts about forced 
labor camps, ongoing crackdowns of religious freedom, and 
problems facing ethnic minorities, and then how you elaborated 
in your testimony, it just finishes what all of our 
distinguished witnesses laid out for us today, an egregiously 
deteriorating situation in Vietnam. It was bad, but it is 
getting worse. And I think the pivot was right after when the 
Bilateral Agreement was signed and all the false hope, perhaps 
well meaning, but unwittingly people said it will get better if 
we only trade a little more. That has not been the case and 
your point about MFN with China, I remember that day because I 
had gone over to Beijing. Midway through the review period 
brought a letter signed by 100 Members of the House and Senate, 
from Nancy Pelosi and so many Members of the conservative side, 
Henry Hyde, many others, and I gave it to the Foreign Ministry, 
not the top guy, but the number two who met with me, and he 
laughed. He laughed. He said we're going to get MFN and sure 
enough on May 26, 1994, they did and if you go to C-SPAN you 
can watch because I had a press conference. David Bonior did 
and Nancy Pelosi did. President Clinton ripped up the Executive 
order that linked human rights with trade and that was an 
absolute pivot point for deterioration in China. Likewise in an 
almost identical, parallel, way, right after the Bilateral 
Trade Agreement, with no linkage to human rights, things have 
deteriorated massively.
    So thank you, each and every one of you for your testimony. 
I would ask our panelists in the way you have touched on it in 
many ways, Ambassador John Hanford, our former Ambassador-at-
Large for International Religious Freedom, when he recommended, 
as did others in the administration--the Bush administration--
that CPC status, Country of Particular Concern, be rescinded 
for Vietnam, it was all based on promise. John Hanford would 
say there are deliverables that they are willing to engage in, 
to stop the forced renunciation of the Montagnards, for 
example, and all of these other repressions of Catholics, the 
Unified Buddhist Church, and all the others, all these 
promises, promises, promises CPC was lifted, the Bilateral 
Agreement was agreed to, MFN conferred--and then a massive 
retaliation against religious believers, Block 8406, all 
leading to say why wasn't CPC put back last year? Well, the 
administration has the opportunity right now.
    I held all the hearings on the International Religious 
Freedom Act, Congressman Frank Wolf's bill. I know exactly how 
the bill works. They could do it today. They could say the 
record warrants it. So I would ask our distinguished panelists 
if they might want to talk about CPC and why it is critical 
that it be reimposed right now with all 18 potential acts of 
penalty that could be imposed on the Government of Vietnam.
    Secondly, on the issue of trafficking, that's the bill I 
wrote. And I can tell you when we did those minimum standards 
and redid them in '03 and '05, because I wrote those as well, 
and then the final bill was done, the Wilberforce Bill, which 
further tweaked those standards, it couldn't be more clear that 
both on labor and sex, but especially labor trafficking, 
Vietnam absolutely warrants a Tier III ranking, which carries 
with it penalties as well. And for reasons that are absolutely 
beyond me, the administration has failed to impose what is 
warranted by the facts on the ground. Those designations are 
about those facts, with that designation. You could do nothing 
with CPC or nothing with Tier III if you think you're making 
progress, but it gives the opportunity to impose two sets of 
sanctions on the Government of Vietnam for trafficking reasons.
    Dr. Thang, if you might want to start on those two very big 
issues.
    Mr. Thang. Yes, Mr. Chairman. While I just asked my 
colleague to try to upload the video, if it doesn't work, then 
I can show it on my laptop. What about the CPC? In 2006, before 
the CPC designation for Vietnam was rescinded, we provided a 
list of 671 Hmong house churches in the northwestern part of 
Vietnam and they all tried to register themselves according to 
the new ordinance. And in 2007, the Vietnamese Government 
decided to indefinitely suspend any review of those 
applications in April 2007. So none of them got registered.
    And during the U.S.-Vietnam human rights dialogue in 2010, 
to the credit of our own State Department, they presented this 
list again to the Vietnamese Government, this is 4 years later. 
And I had personally--and Congressman Cao was there, too--a 
meeting with Congressman Howard Berman and his staff delivered 
the good news, the Vietnamese Government declared right at the 
moment this will be our top priority when we go back to 
Vietnam. We'll revisit, review this list to make sure they get 
registered. A few months later, what happened? That massacre in 
Muong Nhe, just a few months later, after the promise from the 
Vietnamese delegation attending the U.S.-Vietnam human rights 
dialogue.
    And when I look back at this list here and I promise to 
provide this for the record, the village that got razed flat by 
the Vietnamese Government was also on the list. They tried for 
so many years to register according to the ordinance of belief 
and religion issued in 2004. And instead of reviewing, the 
Government of Vietnam destroyed an entire village because they 
were all Protestants. And that's what happens to the CPC. So 
there's no improvement since '07. It's getting worse and worse.
    Regarding trafficking, I propose that our Government do a 
simple thing. Year after year after year, the Trafficking in 
Persons Report, the TIP Report, listed cases of trafficking 
from Vietnam to other countries, Malaysia, Jordan, Taiwan, et 
cetera. All we need to do is to go back to the Vietnamese 
Government and ask them what has happened to these victims and 
what has happened to these export companies that were involved 
in these cases? We need to follow up. And it would be very 
clear that nothing had been done to investigate the corporate, 
the perpetrators and a lot has been done to silence and 
threaten and persecute the victims. That's a very simple task. 
Just go back for the past 5 years through their own TIP Reports 
and report it back to Congress. Based on that, make 
recommendations on ranking Vietnam, either Tier II Watch List 
or Tier III. I believe it should be Tier III squarely.
    Mr. Cao. Mr. Chairman, I just want to reiterate the words 
of Dr. Thang and again, I just want to look at this issue from 
the standpoint of the leverage that we have to use against 
Vietnam in order to promote change. We have seen in the last 2 
years, at least I have seen in the last 2 years, is that our 
approach, the administration's approach to Vietnam has all been 
about lip service. We saw a lot of things. We might condemn 
publicly the actions of Vietnam. But behind the scenes other 
things occur. We increase trade relations. We increase military 
operations so on and so forth, without putting very concrete 
steps that we would require Vietnam to follow through with the 
promises that they made to the U.S. Congress.
    So my plea to the U.S. Congress is if the administration 
does not act, the U.S. Congress must act. And our action will 
put Vietnam on notice that we are paying attention to what 
they're doing, that their actions cannot escape unnoticed. 
Their actions cannot escape without ramifications. So again, my 
plea to the U.S. Congress is that the Congress must act. And I 
hope that the Congress will pass the Vietnam Human Rights bill, 
put Vietnam back on the list of Countries of Particular 
Concern, passing the Vietnam Sanctions bill being pushed 
forward by Congressman Royce, and other legislation that will 
force Vietnam to pay close attention to what they've been doing 
to their people.
    Mr. Smith. I would say to my good friend, Anh Cao, that we 
are scheduling a markup for the Vietnam Human Rights Act and 
whoever seeks to block it, because it twice passed the House, 
and a third time we actually had it readied as an amendment to 
an appropriations bill and it was blocked, all three over on 
the Senate side, I will absolutely call out, as I have in the 
past, but more so now given the fact that we have seen gross 
deterioration of the human rights situation in Vietnam. I don't 
care who is in the White House, I will say this, under George 
Bush, there was a relaxation or elimination of the CPC status 
which was done purely on faith and as I said on deliverables, 
within months of seeing that things further deteriorated vis-a-
vis religious freedom, I and so many others were speaking out. 
I don't care who is in the White House. When you're getting 
abused, you don't say as a Republican or a Democrat, is 
somebody trying to protect their man who happens to be at the 
White House or at the State Department, not so this chairman. 
So if that bill is blocked, because we will mark it up in a 
week or two in subcommittee, I will call them out and call them 
out every day of the week.
    Yes, Mr. Sifton?
    Mr. Sifton. A couple of low-hanging fruit about pushing 
these issues forward. I think that trafficking of persons, Tier 
III designation would be wonderful. CPC would be wonderful. We 
really welcome the letter to Secretary Clinton about the human 
rights report coming up. We're pushing the U.S. Committee on 
International Religious Freedom to strengthen its language, but 
a few words about some other players on the stage. I can't 
over-emphasize how important the U.S. Trade Representative is 
right now as an interlocutor on these issues. I mean they'll 
say good things about how they're listening and they want to 
use congressional leverage to pressure Vietnam, but I feel like 
the whole situation is kind of in a state of unreality.
    The U.S. Trade Representative is insisting the negotiations 
are done quickly and yet it seems inconceivable that Vietnam 
would make the kind of reforms that would be the precursor for 
it being a party to the TPP. So either they're planning to just 
throw Vietnam out of the TPP at the last minute which is one 
way of getting the TPP finalized, or they're going to just give 
up on getting the reforms that they say they want to get. So 
they need to be brought up here to explain exactly what the 
agenda is.
    Of course, it's difficult to get them to talk about the 
negotiating strategy, but there needs to be some accountability 
on the USTR.
    Another thing is it kind of galls me as the Asia director 
for advocacy, that there's this big bank out of Manila, the 
Asian Development Bank which gets an enormous amount of money 
from the United States Government and gives an enormous amount 
of that money to Vietnam. The World Bank does, too, but I mean 
the Asian Development Bank is a pretty big player and they give 
a lot of money to Vietnam and we're a voting member. We're the 
second biggest shareholder in the bank out in Manila after 
Japan and we ought to use that leverage at the bank and we 
don't. If you go out to Manila and visit the ADB today, it's 
like walking into the World Bank 25 years ago. I don't speak 
from personal experience, but from what I've heard. Human 
rights is not on the agenda. It's just give out money.
    So again, if you can exercise the oversight over the Asian 
Development Bank and its funding for programs in Vietnam, that 
would certainly be great. World Bank, too, but of course, 
they're a little bit better on this.
    And then lastly, the Pentagon. What exactly is on the table 
with the strategic partnership? What exactly is Ambassador 
Shear negotiating? I have full faith in Ambassador Shear in 
Hanoi. He's very serious about pushing these issues. They have 
pushed these issues. They've been helpful in a number of 
particular cases and they've raised general issues as well, but 
what exactly is being negotiated with the Pentagon? And how 
crucial is Vietnam to our naval posture in the Pacific? I'm not 
a naval strategist, but you don't have to be Admiral Nimitz to 
appreciate that there's more than one way to posture the fleet 
in the Pacific. They have to be prepared that if Vietnam 
doesn't reform, then the strategic partnership isn't going to 
go forward.
    Mr. Smith. Excellent point, Mr. Sifton. We're planning on 
inviting Assistant Secretary Michael Posner to testify and 
others within the State Department. But I think your point 
about USTR is a great one and we will invite them to come and 
testify so thank you for that recommendation. In terms of the 
bank, I think it is time for some oversight and perhaps a 
letter that we could do jointly to them and follow up on that 
issue as well. Those are very well taken points.
    My final question before going to Mr. Green, I just want to 
ask in regards to your point, Dr. Thang, about the Vietnamese 
law on human trafficking conveniently sidestepping the Palermo 
Protocol which is the boilerplate language used all around the 
world. And if you weaken that, you absolutely will get a 
weakened version of any kind of trafficking law. And the issue 
of torture which you laid out in frankly nauseating detail, 
which it has to be, it has always been my observation that when 
a dictatorship is doing something hideous like torturing and 
doing it in a very pervasive way, they often talk about signing 
a U.N. Convention or some other kind of convention which 
distracts and gets the eye to look askance as to what's 
happening on the ground.
    China perfected that art form when they continually 
announced upon coming here with a high-level delegation that 
they were going to sign the International Covenant for Civil 
and Political Rights and they milked that one for years. And 
then there's no enforcement mechanism to any of these, 
including torture besides reporting and it's not to be 
discounted how important that is, but the torture issue, I 
don't think gets enough focus from Congress or from anyone of 
us. So I thank you especially for bringing it to our attention 
today.
    Mr. Thang. Mr. Chairman, may I also suggest very quickly 
that now there are so many asylum seekers that have 
successfully fled to Thailand, they are the witnesses of the 
crime of modern-day slavery against them, of the crime of 
torture against them, of detention, of religious persecution 
against them. It's very simple for our State Department to ask 
our own officer to work on human rights issues in Thailand and 
Bangkok, just make a visit to them and talk to them, collect a 
lot of information that could not have otherwise been collected 
inside Vietnam.
    Mr. Green. Thank you, Mr. Chairman. Again, I thank all of 
the witnesses for testifying and I again will focus on Ms. Vu 
for your testimony. As the chairman indicated, it was quite 
moving, compelling, and candidly, overwhelming. I'm very 
concerned about you. I'm not sure I should say where you live, 
but I'm concerned about you. My hope is that you will take to 
heart what the chairman said about any concerns you might have 
being called to his attention, our attention through him, 
because I have to be concerned given what I've heard.
    I am concerned about persons who were left behind. Doctor, 
you were helpful. How many people are still in that 
circumstance that she was extricated from? Do you have any 
guesstimate?
    Mr. Thang. Her last knowledge was about 70 people remaining 
in Jordan.
    Mr. Green. And Doctor, from your intelligence, is this just 
one of multiple venues in Jordan or is this the sole venue that 
we have intelligence on that's in this country, in Jordan?
    Mr. Thang. There are only two sweatshops operating with 
Vietnamese in Jordan that we are aware of and the one that we 
wrote on was one of the two. There might be more. Vietnam is 
sending more and more workers to the Middle East these days. 
There are three major markets for Vietnamese labor exports. One 
is Malaysia, the second will be Taiwan, and the third one is 
now the Middle East.
    But let me add one thing here. You're right on the spot 
when you talk about safety. Because right after this 
subcommittee announced the hearing with her name, she got a 
threatening call from the place that she's living and I had to 
call someone in security to protect her. And I would like to--
--
    Mr. Smith. Pass that on to the FBI, immediately.
    Mr. Thang. I would also like to add that the spokesperson 
of the Ministry of Foreign Affairs of Vietnam who, back in 2010 
held a press conference denouncing her, is now the General 
Consul of Vietnam in Houston. And the one, Mr. Truong Xuan 
Thanh, who came to Jordan to threaten her, and tried to report 
to Vietnam for punishment, he's now the General Consul of 
Vietnam in Frankfurt, Germany. They all got promoted.
    Mr. Green. Thank you, Mr. Chairman. And I thank you for 
pointing out that the FBI can be of assistance. Thank you for 
that. Just an aside if I may, the Vietnamese community in 
Houston did its part in protesting that consulate coming to 
Houston and more specifically we really took a hard stand on it 
coming into my district in Houston. There is concern. There is 
concern. And the Vietnamese people have raised these concerns.
    Let me ask Mr. Sifton, you mentioned the blood cashews and 
you spoke quite well. And my suspicion is while I can't impact 
the policy of the United States, I can impact the policy of my 
congressional office. And I'm not as fond of cashews as I used 
to be. My suspicion is we won't have a lot of cashews in my 
office. But are there some other products that you can call to 
our attention that you have been able to trace back to 
involuntary servitude?
    Mr. Sifton. Yes, let me start by saying it's very, very, 
very difficult, especially with Vietnam in particular. There 
are some textile products and some other camping-type mosquito 
nets and some other things that we identified in our report. 
And the companies that we identified took quite responsible 
actions when it was brought to their attention, cut off 
subcontractors. So we haven't had a problem with sort of on the 
corporate side.
    The real issue is in Vietnam. What we have is the Ministry 
of Labor overseeing what is essentially a health issue, drug 
dependency. Why is the Ministry of Labor running detention 
camps for drug users? It really belongs on the Health Ministry. 
I mean the real problem is there's a profit motive to the 
prison wardens who control these facilities. So at the end of 
the day it's a question of the United States, the European 
Union, which just engaged in an EU-Vietnam human rights 
dialogue, just after Michael Posner had his. Other interested 
nations like Norway and Canada are all making it very clear, 
these drug treatment centers have got to close. You get funding 
for HIV intervention into these centers. PEPFAR knew this. 
There was some HIV intervention in this. The U.N. Office of 
Drugs and Crime funding goes to Vietnam for these centers. This 
has got to stop. It's great to have drug treatment centers. 
People who have drug problems need to get treatment. But forced 
labor is not an effective form of drug treatment. Tell Vietnam 
to shut these facilities down.
    David Shear in Hanoi agrees. He's said it. I think he 
should say it a little bit more vocally, but he said it. That's 
what would end this rather than going after the companies one 
by one which we've done. The most effective thing would be for 
the trading partners to say enough is enough, close down the 
centers.
    One word about Jordan, though, you mentioned Jordan. I 
would just say Human Rights Watch globally has a huge amount of 
problems with forced labor, not just from Vietnam into Jordan, 
but from India, Sri Lanka, Nepal. There's an active case in 
Federal court right now against the company in Jordan for 
trafficking of people from Nepal, for instance. There's a big 
problem just with Jordan in particular, as a target country.
    Mr. Smith. Let me just add, Mr. Sifton, before going--are 
you done?
    Mr. Green. I will yield to the chair, of course, yes, sir.
    I will yield.
    Mr. Smith. I didn't mean to cut you off.
    Mr. Green. I'm fine. Thank you, Mr. Chairman. Thank you for 
your testimony.
    Mr. Smith. Mr. Sifton, if I could ask you, Vietnam is a 
focus country and they get hundreds of millions of dollars 
under PEPFAR. I've raised repeatedly that faith-based 
organizations are precluded participation by the Vietnamese 
Government which is contrary to Bush's vision of what PEPFAR 
was all about and it has worked very well in all over Africa 
and everywhere else where there's a PEPFAR focus country. But 
has our Embassy or anyone within the U.S. Government, have they 
investigated, as you called it, labor therapy, where PEPFAR 
might be commingling and money is being used in such a terrible 
way?
    Mr. Sifton. I would be glad to--rather than take up a lot 
of time now, I'd be glad to forward you the correspondence we 
had with USAID and PEPFAR on this issue. The bottom line is a 
lot of money goes to Vietnam under PEPFAR and not a lot of it 
goes into the drug treatment centers, but some does. The money 
that goes in goes for lifesaving anti-virals for a very small 
number of HIV positive people in the forced labor camps. So 
it's kind of difficult morally to say pull out and these 
prisoners suddenly have no HIV/AIDS anti-virals. It's a little 
difficult. But with that said, there's a lot of leverage that 
Ambassador Shear can exercise. And I think he has exercised, 
but again, to go back to my testimony, it's a question of 
keeping up the pressure and not letting it lag. That's our 
biggest fear is that at the 11th hour, when the agreements are 
finally ready to be signed, the administration will fall down 
and agree to all kinds of concessions and not continue to make 
these demands, and we will have squandered this amazing 
opportunity that is only going to present itself once to offer 
all these good things to Vietnam. I don't think they should be 
offered, but I'm not in charge of the foreign policy of the 
United States. If they are going to be offered, it's an 
opportunity that can't be wasted.
    Ms. Vu. Mr. Chairman, if I may? I'm very concerned about my 
safety. I was recently involved in a hit-and-run car accident. 
So I just wanted to raise that. It was 5 days ago.
    Mr. Smith. Did you get a look at who did it?
    Ms. Vu. I was exiting on a highway. And there was a white 
car without any plate, license plate, just hit me and then ran 
off.
    Mr. Green. Mr. Chairman, if I may, one liberty, please. It 
is of concern because I know that there are people who want to 
see us doing business with Vietnam and so we're not necessarily 
talking about somebody doing something dastardly under the 
color of state protection. It could be someone totally 
disconnected from a state, but there are people who are 
interested in a business relationship, so I am concerned and 
I'll be amenable to working with you, Mr. Chairman, to do what 
we can to make sure that the proper authorities are noticed.
    Mr. Smith. Thank you, Mr. Green. Mr. Royce.
    Mr. Royce. Just one question and I'll ask this of Mr. Cao. 
The case I talked about, Viet Khang, was of a songwriter. He 
wrote a song appealing to the conscience of those who were 
brutalizing the protesters. The protest in question was one 
protesting China's territorial ambitions. And along the same 
lines he had the situation of the editorial that I showed that 
had been blocked out painstakingly with a marker. They had 
marked out on every page of The Wall Street Journal that was 
distributed. They had marked out this comment about the case of 
a woman who had organized protests of China's aggression in 
maritime territorial disputes. This topic really seems to get 
under the skin of the current Government of Vietnam. I would 
just ask you what does that Vietnamese songwriter, Viet Khang, 
what does he mean to the Vietnamese people and what do you make 
of the way the government is reacting to these protests about 
maritime aggression?
    Mr. Cao. Thank you for your question, Congressman Royce. 
With respect to the songwriter, I would like to again bring 
attention to the many other activists who are involved in the 
promotion of democracy in Vietnam. Obviously, any democracy 
activist, any person who is involved in promoting freedom and 
religious freedom in Vietnam, they are all considered at least 
by us here in the United States as people of great importance. 
But they are seen by the Vietnamese Government as enemies of 
the state, so that--and the records show very clearly that many 
of these people are routinely beaten, imprisoned, arrested, 
falsely accused for actions that they deem to be illegal under 
state law, but behind the scenes, obviously, their intention is 
all about intimidation. Their intention is about cracking down 
on democracy activism, on religious freedom activism. And this 
is something that we--as a Congress, you all, as Members of 
Congress, must continue to pay close attention to because 
freedom and democracy are not only confined to the United 
States. It should be an idea that is spread worldwide and we 
saw the significance of the activists in the Middle East, the 
Arab Spring, and I hope that something similar might occur in 
Southeast Asia. Call it the Asian Spring or what have you, but 
at least the goals and the aspirations of a people fighting for 
freedom would be fulfilled.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
first of all I'd like to thank you on behalf of many of my own 
constituents and Mr. Royce's constituents as well for having 
this hearing today. Loretta Sanchez and Mr. Royce and myself 
represent large numbers of Vietnamese-Americans and we are very 
proud to do so and we are very grateful for the leadership that 
you provided over the years to make sure that their loved ones 
left back in Vietnam are not suffering horrible brutality from 
the regime that continues to oppress them.
    I can't help but notice that when I go to a clothing store, 
more and more I'm finding clothing that says, ``Made in 
Vietnam.'' And that's very disturbing to me because I realize 
what we have here is American businessmen going into a 
dictatorship in order to make a bigger profit from repressed 
people who are not permitted to form unions and go on strikes 
and demand better working conditions. And if American 
businessmen are going to be investing someplace, it should be 
in countries that are governed by democratic institutions. I 
mean we have people who are struggling now in Asia to create 
more democratic countries like in the Philippines, for example. 
And we should not, the United States should have as our policy 
that any Export-Import Bank or any of the Pacific Banks or 
whatever we're talking about, the financial, the international 
financial structure that we are subsidizing, that that money 
should not be going to dictatorships. We should have that as 
the American policy and that would and should leave out Vietnam 
as it is today.
    And unfortunately, even some of the businessmen that have 
gone to Vietnam have realized that the dictatorship, that under 
such dictatorships, they're not going to treat foreign 
investors and foreign businessmen any more fairly or honestly 
than they treat their own population. And there are many 
businessmen that have gone there and lost their investment 
through swindles by the government, by out and out theft by 
government agents. And why would we as American citizens, as 
free people, want to subsidize through these investment banks 
that we have, these international banks, people who are taking 
the risk of going into Vietnam or other dictatorships? We 
should not.
    And if a businessman wants to go over there, let them take 
the risk, knowing that there's no free court system or judicial 
system in which these type of things can be taken up. So none 
of that. In fact, what we've heard today and I will be--I'm 
sorry, I was at another hearing, but I will be going through 
the transcripts, but I'm sure that you have underscored that 
the actual lack of freedom in Vietnam has gotten worse and not 
better and during the time period when people are investing 
money there. And yet, we have been told over and over again the 
more American interaction economically, the more investment, 
the more there will be reform. That has never worked in China. 
It hasn't worked elsewhere. It's not working in Vietnam. And I 
appreciate you drawing attention to that through this hearing 
today. So I would just stand on solidarity with you and I will 
be reading your testimony. I'm sorry I had a--we have hearings 
at the same time here. We have to run back and forth.
    But I believe that one last note, we now have, I believe, 
an opportunity that we have leverage on the communist Chinese 
Government of Vietnam and that is they feel threatened by 
another dictatorship. How about that? Two dictatorships, two 
gangsters fighting over territory. We've had that happen in our 
country and when you've got the Government of Communist China 
engaged in military action against the Government of Vietnam 
over certain territories, it is now the moment for the United 
States to use that as leverage to make sure they concede points 
on human rights and democracy before we go in and help them. 
But if they're willing to do that, maybe we should help them 
because I do perceive that it is the Chinese who are being the 
aggressor. But let's use this as leverage to get some reform in 
Vietnam before we proceed with helping that dictatorship. Thank 
you very much.
    Mr. Smith. I want to thank Chairman Rohrabacher for his 
very eloquent summation of what this hearing has been all 
about. I know Dr. Thang wants to show a video. I do hope the 
members will stay a moment to watch that video. We held a 
hearing and you remember it very well about Nguyen Nam when he 
was murdered by the Vietnamese thugs and you did mention, of 
course, Con Dau earlier. And it seems to be a pattern. You want 
certain property owned by the church, regardless, or by one of 
the religious denominations, you take it, you call it eminent 
domain or some facsimile of that and then you beat the people 
to death as they did there.
    Your thoughts on that, update on Con Dau? Then we'll show 
that video.
    Mr. Cao. And again, the issue of land disputes is not an 
issue that is under any color of law. It's an issue of pure 
greed. Many of these land disputes are promoted by officials 
who have some kind of business dealings that would lead them to 
make a lot of money. So again, do not listen to what is coming 
out of Vietnam, but pay attention to the intentions and the 
stories that are being told by the citizens who are repressed 
and who are being arrested and tortured by the Vietnamese 
Government.
    Mr. Thang. In answering your question, Mr. Chairman, first 
I would like to be the bearer of good news. The widow of Nguyen 
Thanh Nam, who was tortured and beaten to death, successfully 
fled to Thailand. I had the pleasure of meeting her during my 
latest trip to Thailand just last month. I would like to take 
this opportunity to express my concern over the State 
Department's inaccurate reporting regarding what happened in 
Con Dau Parish. The State Department's report on international 
religious freedom claimed that the Catholic Church had agreed 
to surrender the parish's cemetery to the government of Da Nang 
City for eco-tourism development. There is no such agreement. 
There is no document to support that claim. The report also 
claimed that the bare-handed mourners reportedly attacked the 
anti-riot police who were armed to their teeth. How plausible 
was that? Regarding the death of Mr. Nam, the reporter said 
that this disagreement among the family members of Mr. Nam, 
whether he died of a natural cause or because of a beating, you 
can go back to the report and read that.
    Clearly, the members of the family that had been approached 
by the police before our team from the U.S. Embassy met in 
Vietnam to investigate, and they were told, if you say anything 
you will face the same fate as Mr. Nam. Of course, they would 
say yes, he died of natural causes. Why didn't we, as a State 
Department, just present the facts, that he got beat up, he got 
tortured, he was poked through the ears with a sharp wooden 
stick and he suffered injuries, internal bleeding, and he died 
a few hours later. Why did we have to be speculating whether he 
died of natural causes or not? Just present the facts.
    So it's very troubling because after the UNHCR recognized 
49 of those Hmong parishioners as refugees, the next six were 
excluded or denied refugee status, after that report came out. 
So we talked to Ambassador Posner and begged him to review that 
and please do talk to him to revise that piece of the report.
    Now regarding making the case for CPC redesignation, right 
after we rescinded the CPC designation in late '06, the Central 
Bureau of Religious Affairs, that is the counterpart that Mr. 
John Hanford had been dealing with, issued a document that 
later was leaked out in 2007 saying that we should resolutely 
overcome the abnormal and spontaneous growth of Protestantism 
and propagandizing and mobilizing the people to safeguard and 
promote good, traditional beliefs of ethnic minorities. That is 
a euphemism for forced renunciation of their Christian faith. 
They are being pushed to go back with the traditional beliefs 
and stay away from Protestantism. Here are a few pictures.
    In 2008, this is what happened to Pastor Nguyen Cong Chinh 
when he tried to help the Montagnard in the Central Highlands. 
Got beaten up bloodily.
    And this was what happened in 2009, a prominent member of 
the Unified Buddhist Church, he tried to deliver relief to the 
poor people in Vietnam, low-income people in Vietnam.
    And this is what happened in 2009 to Father Ngo The Binh 
who just led a delegation to hold a prayer of solidarity with 
the Parish of Tam Toa that was under threat of being taken away 
by the Government of Vietnam.
    This is what happened to a parishioner in Dong Chiem where 
the Government of Vietnam blew up the cross, the crucifix with 
explosives.
    This is what happened to Brother Nguyen Van Tang of the 
Redemptorist Order who came to Dong Chiem to express solidarity 
with the parishioners in Dong Chiem. They are beaten up by the 
police.
    This is what happened to a member of the Redemptorist 
Church in Hanoi in 2010. Because this is a college student and 
he protested the instructors from defaming his faith in class.
    And this--you already saw this, a picture of Mr. Nam in Con 
Dau in 2010, July. And this is what happened to a member of the 
Baptist Church in Quang Ngai just last year, October.
    The Buddhists broke in, disrupted the prayer, and beat him 
up. And this just happened in December, last month, in Thai Ha 
in an incident that Congressman Cao did mention. So this a 
parishioner who tried to peacefully protect church property.
    So these are just a few examples of police brutality 
against religious leaders and people of faith. And now your 
permission very quickly just 3 minutes, I'd like to swho the 
video of very rare footage of what happened in Muong Nhe 
village.
    [Video presentation.]
    You can see here the military were moving in to demolish 
the entire Hmong Christian village of Xa Na Khua and Muong Nhe. 
You see here the government workers, the cadres, the military 
sitting here. And you can see soon the workers breaking down 
the roof here. These are homes. These are their homes here. And 
these are the Hmong Christians.
    This is what was left of the homes. Nothing left. You see 
all these kids here. And then in mid-March the government came 
back after temporary suspension due to Lunar New Year and they 
demolished the rest of the village.
    You see all the roofs here. And these people now have 
become homeless, these Christians.
    And then May 1st, these small villagers they have no other 
choice but come together peacefully to request for an end to 
religious persecution and an end to demolition of their homes 
and the confiscation of their land, but 3,000 to 5,000 
estimate. As you can see, the women, the children, they all 
came, peacefully, just begging the government to let them live. 
But then the government moved troops in, hundreds of them, 
surrounding and circling the demonstrators with guns, live 
ammunition.
    Mr. Smith. How did you get this video?
    Mr. Thang. Some of the Hmong themselves, very high risk to 
themselves. You see batons here and electric rods and these are 
the mobile anti-riot police coming in. And now they're being 
beaten up here. They're running away, escaping. And there was a 
total blockage of news reporters coming in or news getting out 
from Muong Nhe since.
    Thank you, Mr. Chairman.
    [Video ends.]
    Mr. Smith. Thank you very much. Without objection, if 
there's any final statement our distinguished panel would like 
to say before we adjourn, we do have to make our way over to a 
vote. We're almost out of time.
    Mr. Thang. Thank you, Mr. Chairman, and please do keep the 
attention on this issue.
    Mr. Smith. There will be a series of hearings here like I 
said, Michael Posner and USTR will all be here.
    Mr. Green. Mr. Chairman, I don't know whether that's in the 
record, but without objection if there is none, I would ask 
that a copy of that be placed in the record officially.
    Mr. Smith. Without objection, so ordered.
    Mr. Green. Thank you.
    Mr. Smith. As soon as any final statement is made, the 
hearing will be adjourned without objection.
    [Whereupon, at 4:31 p.m., the hearing was concluded.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<ls-thn-eq><brit-pound> stat<box><acctof><box><Rx>t 
    w<careof>t<star> <star><box>av<variable> <box><star><careof>ts\

  STATEMENT OF MS. PHUONG-ANH VU, VICTIM OF HUMAN TRAFFICKING

    [The following edited oral testimony was provided by Ms. 
Vu.]
    Ms. Vu. I would like to say thank you for the opportunity 
to be here and wish your family a happy Lunar New Year.
    I grew up in a poor family of ethnic Hmong in a province 
called Lao Cai in North Vietnam. My family is Catholic so we 
have difficulties living there under the Vietnamese Government 
policy of persecuting Christian people.
    The Government of Vietnam has the policy of persecuting 
Christian Hmong people and anyone that believes in 
Christianity. My family, we have the two of us, my older sister 
and I. And my father died when I was 1 year old. When I turned 
16, my sister was kidnapped and she's been missing since then. 
Heeding the Vietnamese Government's call for citizens' 
participation in the labor export program in 2008 I was 
transferred to Jordan and working in a sewing factory for a 
Taiwanese contractor. My group included 276 women and with the 
promise to only work 8 hours a day and that we would earn $300 
a month. That is an enormous amount of money for myself, along 
with the people that came with me.
    Myself, along with all my friends, each of us had to pretty 
much mortgage our home and borrow money, $2,000, to pay to the 
Government of Vietnam to participate in this program. We were 
never given any contracts to sign and it wasn't until we got on 
the plane where they gave us the contract. When we got to 
Jordan, it turned out that all the promises were reversed. When 
we arrived, immediately they took all of our paperwork, all of 
our passports, and immediately put us to work. Then starting 
the next day, we have to work and the shift was 16 hours a day.
    I worked for 10 days and I received $10. I was very upset 
and surprised, so I asked the employer and the employer's 
response was that I would need to talk to the people who 
brought us here which would be the Vietnamese Government. We 
stopped working and demanded our wages be paid. The reason we 
stopped working was because we demanded the owner to pay us but 
he refused. After 10 days of being on strike, the owner gave us 
an ultimatum. They withheld food, electricity, and water from 
us. A lot of us--some of them were afraid of the employer's 
threats and could not withstand the hunger so they returned to 
work, but 176 of us remained on strike. A woman named Vu Thu 
Ha, she's a representative of the labor export company of 
Vietnam, she led a group of security officers and police who 
came to our rooms and started to physically assault us.
    All the women there are like me, very petite, and tiny and 
weakened by not having food and so forth. So they were beaten. 
The security officers and the police pulled on our hair, hit 
them, they slammed their heads against the floor until blood 
came out from their nose and mouth. So it was really brutal.
    I witnessed myself that some of my friends had become 
unconscious but they did not stop. They pulled and dragged my 
friends like animals, and it's very heartbreaking. And they 
continued to beat us with a batton, I thought my friend had 
died and I didn't know what to do so I returned to help. I took 
a cell phone and tried to record what was happening, so they 
started beating me on the head and the bruise is still there on 
my head and it's still there.
    So I was heartbroken to see for myself all the women having 
to suffer through this ordeal, being a migrant worker. What I 
didn't understand was that after the owner of the company 
witnessed us all being beaten and he did not do anything and 
then afterward they all were shaking hands and smiling. So I 
didn't understand why that was happening. We were isolated and 
confined in a room. We tried to get help, I broke the glass 
window and screamed through the windows. Nobody came. The 
Jordanian police were there, but they were there to help beat 
us and forced us to return to work, rather than helping us.
    On that same day a lot of my friends were vomiting blood 
and they were obviously seriously injured. I tried to call back 
to the Government of Vietnam and the company that arranged our 
trip for help and no one came to help us. So I didn't know what 
to do so I have to find food and medicines to help my friends. 
I had to gather everything that we have and even the tampons 
for women to sell to get the money to buy instant noodles for 
my friends. I'm sorry, but whenever I think about this I cannot 
speak, it gets very emotional for me.
    And then one day the Vietnamese Government delegation came. 
I was happy because I thought they would be there to represent 
the Government of Vietnam and to protect us. I was so happy, 
but it turned out they came, it was very disappointing because 
not only did they not help us, but they also threatened us. The 
reason they threatened because I was the one that contacted the 
newspaper in Vietnam. They did an article and the article got 
to Dr. Thang, that's how he knew about it and Dr. Thang sent us 
money to buy medicines for my friends and that's why they came 
to threaten me.
    I used the money that was given from Dr. Thang to get 
medicine for my friends, but the government accused me of 
collaborating with the NGOs and abetting with the anti-
government persons for my own benefit. I asked Dr. Thang to 
help my friends because most of them were very sick from being 
beaten and Dr. Thang arranged to have some physicians from IOM 
to come and help them. After the IOM delegation came and left, 
we were confined and isolated again and we were not allowed to 
go outside. Then we were able to return to Vietnam and I 
learned that it was thanks to the Congressman and Dr. Thang.
    The day before we were supposed to return there were two 
gentlemen named Truong Xuan Thanh and Tran Viet Tu who worked 
at the Embassy of Vietnam in Cairo, Egypt. They told my friends 
that upon returning to Vietnam I would be prosecuted according 
to the law. Dr. Thang helped me escape and when I got to 
Bankok, Thailand, I was able to escape from the government. The 
journey of my escape was very long and time is limited, so I 
won't be able to explain all that right now. While I was in 
Thailand I was threatened by the Vietnamese Embassy and they 
said they would chop me into hundreds of pieces. And I have 
these verbal threats recorded. While I was living in Thailand 
for 3 years, there was a lot of suffering including for my mom 
and it was very emotional for me while I was staying there.
    The most heartbroken for me was when my 3-year-old daughter 
was electrocuted and died and she was not allowed to be buried 
unless I returned to Vietnam. I had thought about returning to 
Vietnam to see my daughter one last time but the police had 
already surrounded my house.
    One of my friends, Ngoc, who was beaten by the police has 
died because of the injury. I don't know what else to say. For 
my last words I just want to send my gratitude to Dr. Thang, 
CAMSA, BPSOS, and Congressman Smith and the panel and the U.S. 
Government for allowing this hearing and hope that it will help 
my people. I know there's going to be a lot of uncertainties 
and threats for me participating in this hearing. I will do my 
best to live as a witness to let the Government of Vietnam and 
for everbody to know. However, I chose to do it because I don't 
want a second Phoug-Anh like myself. I would like to be able to 
prevent this from happening to other people.
    I also beg that everyone on the panel along with everyone 
here in the room now that you have heard my testimony that you 
would raise the voice and do something to help the Vietnamese 
women from suffering from human trafficking.



        <F-dash>\<func.-of><star>a<Rx><bullet><ellipse><ellipse>
            <diamond><n-iden-3><Hoarfrost><bell><Hoarfrost> 
                <natural><box><sharp><pound><natural>t\

    Material submitted for the record by Nguyen Dinh Thang, Ph.D., 
                  executive director, Boat People SOS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<bell>a<variable><ellipse><ellipse>
        <n-iden-3><natural><careof>s<pound><Rx><box><natural>s 
                         <script-l><careof>sts\

Material submitted for the record by Mr. Rong Nay, executive director, 
                  Montagnard Human Rights Organization

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<Hoarfrost><careof><bullet>t<pound><Rx><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

Material submitted for the record by Mr. John Sifton, advocacy director 
                      for Asia, Human Rights Watch

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


              <F-dash>\<r-because><natural><box><box><Rx> 
                     <F-dash><func.-of><Register>\

    Material submitted for the record by the Honorable Al Green, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
